           Office Of Inspector General




February 9, 2004

MICHAEL S. FUREY
MANAGER, NORTHERN VIRGINIA DISTRICT

SUBJECT:         Audit Report – Efficiency of Work Performed by Clerks in the Springfield,
                 Virginia, Business Mail Entry Unit (Report Number NO-AR-04-004)

This report presents the results of our audit of work performed by business mail
entry employees in the Springfield, Virginia, Business Mail Entry Unit. (Project
Number 03YG054AC000). We conducted this self-initiated audit jointly with Postal
Service Capital Metro Area Marketing managers.

Based on our audit, we concluded that workhours necessary to accept business
mailings in the Springfield, Virginia, Business Mail Entry Unit were excessive. During
the audit, Postal Service management agreed to reduce business mail entry workhours
by 2,775 hours by the end of fiscal year 2006. We calculated the financial impact of this
reduction in workhours could produce an estimated cost avoidance of $969,893 over
ten years. We recommended the manager, Northern Virginia District, reduce hours as
planned and periodically reevaluate staffing needs. Management agreed with our
finding and recommendations and actions taken or planned should correct the issues
identified in the report. Management’s comments and our evaluation of these
comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Robert J. Batta,
director, Network Operations - Processing, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
cc: John A. Rapp
    Anita J. Bizzotto
    John R. Wargo
    Jerry D. Lane
    Tammy T. Edwards
    Michele A. Denny
    Susan M. Duchek
Efficiency of Work Performed by Clerks in the                                     NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit


                                           INTRODUCTION
Background                      There are over 2,000 business mail entry units located in
                                Postal Service facilities nationwide. They accepted
                                approximately $34.8 billion in revenue in fiscal year
                                (FY) 2002, which represents about 53 percent of the Postal
                                Service’s total revenue. Business mail entry unit clerks
                                receive business mailers' bulk, presorted, and permit mail
                                for acceptance. Business mail is accepted using dedicated
                                platform space, office space, and a staging area on the
                                workroom floor. A business mail entry clerk, using
                                prescribed acceptance procedures, typically performs
                                mailing verifications. Verification procedures include
                                verifying fees and funds on deposit, reviewing contents of
                                mailpieces, checking of labels and mail make up, and
                                completing postage verification.

                                The Postal Service operations are organized into nine areas,
                                as depicted below. The Springfield, Virginia, Business Mail
                                Entry Unit is located in the Capital Metro Area. The Capital
                                Metro Area accepted $1.7 billion or approximately 5 percent
                                of total FY 2002 Postal Service business mail entry revenue.
                                The Springfield, Virginia, Business Mail Entry Unit accepted
                                $12.9 million or less than one-half percent of the FY 2002
                                Capital Metro Area Business Mail Entry Unit revenue.




                                                   1
Efficiency of Work Performed by Clerks in the                                       NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit




Objective, Scope,               The objective of our audit was to assess the efficiency
and Methodology                 of work performed by business mail entry clerks within the
                                Springfield, Virginia, Business Mail Entry Unit. To assess
                                the efficiency of work performed, we observed business mail
                                entry unit operations and analyzed business mail volumes
                                and workhours. In addition, we benchmarked the
                                Springfield, Virginia, Business Mail Entry Unit revenues and
                                mailings with other business mail entry units on a national
                                basis. We conducted this audit jointly with Postal Service
                                Capital Metro Marketing managers.

                                The Springfield, Virginia, Business Mail Entry Unit
                                comprised a business mail entry unit at the Burke, Virginia,
                                branch office and a detached mail unit.

                                We relied on Postal Service operational systems, including
                                the National Workhour Reporting System, Standard Field
                                Accounting System unit revenue data, Web Enterprise
                                Information System, and the Permit System to perform our
                                analysis of mailings and workhours. We did not test the
                                validity of controls over these systems. However, we
                                checked the accuracy of data by confirming our analysis and
                                results with Postal Service managers. Nothing came to our
                                attention to suggest that data used was unreliable.

                                This audit was conducted from October 2003 through
                                February 2004, in accordance with generally accepted
                                government auditing standards, and included such tests
                                of internal controls as were considered necessary under
                                the circumstances. We discussed our conclusions and
                                observations with appropriate management officials and
                                included their comments, where appropriate.

Prior Audit Coverage            We have issued six prior audit reports on the efficiency of
                                business mail entry units. (See Appendix A for details.)




                                                   2
Efficiency of Work Performed by Clerks in the                                                         NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit


                                            AUDIT RESULTS
Assessment of                     Workhours within the Springfield, Virginia, Business Mail
Employees’                        Entry Unit were excessive in relation to the number of
Workhours                         business mailings processed. Postal Service policies1
                                  require that business mail entry units ensure the efficient
                                  use of workhours. Furthermore, FY 2002 mailings per
                                  workhour were well below benchmarked units. Postal
                                  Service management agreed that 2,775 workhours2 could
                                  be eliminated based on business mail volumes, benchmark
                                  data, and observations of business mail operations.

                                  As shown in the table below, FY 2002 mailings per
                                  workhour3 for the Springfield, Virginia, Business Mail Entry
                                  Unit was .82 while the national average for business mail
                                  entry units was 1.66. This means the Springfield, Virginia,
                                  Business Mail Entry Unit processes a little under
                                  one mailing per workhour versus over one and a half
                                  mailings per workhour on average for other business mail
                                  entry units.

                                  Table 1 – FY 2002 Business Mail Entry Unit Comparison


                                                          LDC 794            Number of          Mailings per
                                                         Workhours            Mailings           Workhour

                                   Springfield,               5,919              4,864                .82
                                   Virginia

                                   National               8,132,715          13,485,241              1.66
                                   Average5

                                  To corroborate our analysis, observations of the Springfield,
                                  Virginia, Business Mail Entry Unit revealed that employees
                                  had idle time. This can be attributed to:

                                       •   Low mailing volumes per workhour.


1
  Handbook DM-109, Business Mail Acceptance, Chapter 2.
2
  Workhour reductions were based on the Springfield, Virginia, Business Mail Entry Unit Action Plan.
3
  Mailings per workhour is defined as the number of business mail entry unit mailings divided by the number of
LDC 79 (labor distribution code) workhours.
4
  LDC 79 is the labor distribution code for mail acceptance.
5
  National average was calculated by dividing total business mail entry unit FY 2002 mailings by total number
of FY 2002 LDC 79 workhours.




                                                          3
Efficiency of Work Performed by Clerks in the                                                          NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit


                                       •    Business mail entry unit managers not evaluating
                                            and adjusting staffing levels based on current mail
                                            volumes.

Management’s                      To improve productivity, Postal Service managers agreed
Actions                           to reduce business mail entry workhours in the Springfield,
                                  Virginia, Business Mail Entry Unit by 2,775 hours by the
                                  end of FY 2006. These actions will produce an estimated
                                  cost avoidance of $969,8936 over the next ten years.
                                  Appendix B details the financial impact of workhour
                                  reductions planned by the Springfield, Virginia, Business
                                  Mail Entry Unit.

Recommendations                   To improve business mail entry productivity, we recommend
                                  the manager, Northern Virginia District:

                                  1. Reduce business mail entry hours as planned.

                                  2. Periodically evaluate staffing to determine if further
                                     workhour adjustments are necessary based on
                                     workload.

Management’s                      Management agreed with the finding and recommendations,
Comments                          including the reduction of business mail entry workhours by
                                  2,775 by the end of FY 2006. Management’s comments, in
                                  their entirety, are included in Appendix C of this report.7

Evaluation of                     Management’s comments are responsive to the
Management’s                      recommendations. Management’s actions, taken and
Comments                          planned, should correct the issues identified in the report.




6
  Based on Postal Service’s methodology, the cost avoidance was projected over ten years using Postal Service’s
assumptions for annual workhours, the business mail entry clerk labor rate, and the latest labor escalation factor.
See Appendix B.
7
  Management inadvertently referenced the financial impact of the workhour reductions to Appendix A rather than
Appendix B.




                                                          4
Efficiency of Work Performed by Clerks in the                               NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit


                                             APPENDIX A

                                   PRIOR AUDIT COVERAGE
Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, dated September 26, 2002)
disclosed many Denver Bulk Mail Center and Denver General Mail Facility business
mail entry employees were not needed to accept business mailings. As a result,
management could save an estimated $1 million annually. We recommended
management oversee the consolidation of business mail entry operations and reduce
staff as planned, and reevaluate staffing to determine if further staff reductions are
necessary. Management agreed and the actions taken and planned were responsive to
the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, dated March 28, 2003),
disclosed workhours necessary to accept business mailings at these facilities should be
reduced. As a result, management could produce an estimated cost avoidance of
$588,730 through the end of FY 2005 by fully implementing its planned workhour
reductions. We recommended senior plant managers of the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers reduce hours, periodically reevaluate staffing needs, and
ensure that appropriately trained personnel perform acceptance functions.
Management agreed and the actions taken and planned were responsive to the issues
identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, dated July 31, 2003), disclosed workhours
necessary to accept business mailings at the facilities we reviewed should be reduced.
During the audit, Postal Service management agreed to aggressively reduce business
mail entry workhours by 28,800 hours by the end of FY 2005. We calculated the
financial impact of this reduction in workhours could produce an estimated cost
avoidance of approximately $9.26 million over ten years. We recommended the
manager, Los Angeles District, reduce hours and periodically reevaluate staffing.
Management agreed with our recommendations and has initiatives in progress
addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the San Francisco
Business Mail Entry Unit (Report Number AO-AR-03-002, dated September 25, 2003),
disclosed workhours necessary to accept business mailings in the San Francisco
Business Mail Entry Unit should be reduced. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours by
18,000 hours by the end of FY 2006. We calculated the financial impact of this
reduction in workhours could produce an estimated cost avoidance of approximately
$6.9 million over ten years. We recommended the manager, San Francisco District,




                                                   5
Efficiency of Work Performed by Clerks in the                               NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit


reduce hours as planned and periodically reevaluate staffing. Management agreed and
the actions taken and planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, dated December 24, 2003),
disclosed workhours necessary to accept business mailings in the Southern Maryland
Business Mail Entry Unit should be reduced. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 20,240 hours by the
end of FY 2006. We calculated the financial impact of this reduction in workhours could
produce an estimated cost avoidance of approximately $8.4 million over ten years. We
recommended the manager, Capital District, reduce hours as planned and periodically
reevaluate staffing. Management agreed and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, dated December 26, 2003),
disclosed workhours necessary to accept business mailings in the Columbia, Maryland,
Business Mail Entry Unit should be reduced. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 3,960 hours by the
end of FY 2005. We calculated the financial impact of this reduction in workhours could
produce an estimated cost avoidance of approximately $1.4 million over ten years. We
recommended the manager, Baltimore District, reduce hours as planned and
periodically reevaluate staffing. Management agreed and the actions taken and
planned were responsive to the issues identified in the report.




                                                   6
Efficiency of Work Performed by Clerks in the                                              NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit



                                            APPENDIX B

        SPRINGFIELD, VIRGINIA, BUSINESS MAIL ENTRY UNIT COST
                             AVOIDANCE
                     (FUNDS PUT TO BETTER USE)

                                            Yearly                                 Cost Avoidance
                                                             Fully Loaded
                                           Workhour                                (Ten Years with
                    Year                                    Labor Rate/Hour
                                           Reduction                                 escalation)

        FY 2004                               1,850             $ 40.29               $ 835,061
        (Effective Accounting Period 1)
        FY 2005                                0                $ 41.30                   $0
        (Effective Accounting Period 1)
        FY 2006                               925               $ 42.33               $ 438,688
        (Effective Accounting Period 1)
          Totals (ten full fiscal years)      2,775                                   $1,273,749
                                                            Present Value
                                                                                      $ 969,893
                                                           @4.5%, Ten Years




SOURCE

    •    Workhour reductions were based on the Postal Service Springfield, Virginia, Business Mail Entry
         Unit Action Plan.

ASSUMPTIONS

    •    Labor rates were based on the Postal Service 2003 Published Rates for a PS-06 business mail
         entry unit technician.

    •    Yearly escalation factor is 2.5 percent.

    •    Postal Service cost of borrowing is 4.5 percent.

FUNDS PUT TO BETTER USE -- Funds that can be used more efficiently by implementing
recommended actions.




                                                       7
Efficiency of Work Performed by Clerks in the           NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                   8
Efficiency of Work Performed by Clerks in the          NO-AR-04-004
 Springfield, Virginia, Business Mail Entry Unit




                                                   9
